Case 3:13-cr-00038-DCB-LRA Document 60 Filed 09/10/20 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF AMERICA

PLAINTIFF

VS.

CRIMINAL NO. 3:13-cr-38-DCB-LRA

MICHAEL JAMES BARNES

DEFENDANT
ORDER

This matter is before the Court on Defendant Michael James
Barnes’

Motion

for

3582(c)(1)(A)(i).

Compassionate

Having

read

Release

the

Motion,

Under

18

response

U.S.C.

§

thereto,

memorandum in support, applicable statutory and case law, and being
otherwise fully informed in the premises, the Court finds as
follows:
Background
On October 17, 2013, this Court sentenced Michael Barnes to
serve 180 months in the custody of the Bureau of Prisons (BOP)
with three years supervised release for Felon in Possession of a
Firearm. Barnes has previously been convicted in Mississippi for
Possession

of

Precursors

with

Intent

to

Manufacture

Methamphetamine on 9/11/2006 and in Florida for Kidnapping on
4/12/1984, Burglary of a Dwelling on 10/15/1979, and Attempted
Robbery on 10/03/1979. Barnes is currently serving his sentence at
the United States Penitentiary in Lewisburg, PA. Defendant is

1

APPENDIX 2

Case 3:13-cr-00038-DCB-LRA Document 60 Filed 09/10/20 Page 2 of 6

eligible for home detention on September 25, 2025. His projected
release date is March 25, 2026.
Barnes moves for compassionate release pursuant to 18 U.S.C.
§3582(c)(1)(A)(i). He seeks to either be released or be allowed to
serve the remainder of his sentence in home confinement. Barnes
claims that his medical history puts him at a high risk of
contracting COVID-19.
Discussion
Title 18 U.S.C. § 3582(c)(1)(A) authorizes a district court to
grant such a reduction upon motion by the Director of the Bureau
of Prisons or upon motion of the defendant “after the defendant
has fully exhausted all administrative rights to appeal a failure
of the Bureau of Prisons to bring a motion on the defendant’s
behalf or the lapse of 30 (thirty) days from the receipt of such
a request by the warden of the defendant’s facility, whichever is
earlier.” Defendant specifically seeks this reduction in sentence
under Section 3582(c)(1)(A)(i), which permits the sentencing court
to grant such a motion where “extraordinary and compelling reasons
warrant such a reduction.”
Exhaustion

2

Case 3:13-cr-00038-DCB-LRA Document 60 Filed 09/10/20 Page 3 of 6

The Defendant and the United States agree that the Defendant
has fulfilled the requirement of 18 U.S.C. §3582(a)(1)(A) because
the Defendant has exhausted his administrative remedies.
Claim of “extraordinary and compelling reasons”
The

United

States

Sentencing

Commission

has

established

guidelines to determine what constitutes an extraordinary and
compelling reason for compassionate release. Extraordinary and
compelling reasons for compassionate release exist where:
(A) Medical Condition of the Defendant.
(i) The defendant is suffering from a terminal illness
(i.e., a serious and advanced illness with an end of
life trajectory). A specific prognosis of life
expectancy (i.e., a probability of death within a
specific time period) is not required. Examples include
metastatic solid-tumor cancer, amyotrophic lateral
sclerosis (ALS), end-stage organ disease, and advanced
dementia.
(ii) The defendant is—
(I) suffering from a serious physical or medical
condition,
(II) suffering from a
cognitive impairment, or

serious

functional

or

(III) experiencing deteriorating physical or mental
health because of the aging process, that
substantially diminishes the ability of the
defendant
to
provide
self-care
within
the
environment of a correctional facility and from
which he or she is not expected to recover.
(B) Age of the Defendant. – The defendant (i) is at least 65
years old; (ii) is experiencing a serious deterioration in
physical or mental health because of the aging process; and

3

Case 3:13-cr-00038-DCB-LRA Document 60 Filed 09/10/20 Page 4 of 6

(iii) has served at least 10 years or 75 percent of his or
her term of imprisonment, whichever is less.
(C) Family Circumstances.
(i) The death or incapacitation of the caregiver of the
defendant's minor child or minor children.
(ii) The incapacitation of the defendant's spouse or
registered partner when the defendant would be the only
available caregiver for the spouse or registered
partner.
(D) Other Reasons. – As determined by the Director of the
Bureau of Prisons, there exists in the defendant's case an
extraordinary and compelling reason other than, or in
combination with, the reasons described in subdivisions (A)
through (C).
U.S.S.G. 1B1.13, Application Note 1.
Defendant seeks compassionate release based on his current
medical conditions. Barnes is a 60-year-old who suffers from COPD
and high blood pressure/hypertension. [ECF No. 54]. He also suffers
from other health conditions including an enlarged prostate with
lower

urinary

tract

symptoms,

hyperlipidemia,

chronic

pain,

bipolar disorder, and esophageal reflux. [Id.] Additionally Barnes
has

a

nodule

on

his

right

lung

that

is

consistent

with

granulomatosis disease. He is currently taking medication for
COPD, hyperlipemia, and bipolar disorder. [ECF No. 54]. Current
CDC publications indicate people with hypertension might be at an
increased risk and people with COPD are at an increased risk for
Covid-19. CENTERS FOR DISEASE CONTROL AND PREVENTION, People with
Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019-

4

Case 3:13-cr-00038-DCB-LRA Document 60 Filed 09/10/20 Page 5 of 6

ncov/need-extra-precautions/people-with-medical-conditions.html
(last visited Sept. 3, 2020).
Even if “extraordinary and compelling reasons” for early release
exist, the Guidelines’ policy statements provide for a reduction
in sentence only if a defendant “is not a danger to the safety of
any other person or the community, as provided in 18 U.S.C.
§3142(g).” U.S.S.G. §1B1.13(2).

Barnes

disputes his potential

danger to society, claiming that he has taken eleven education
courses during incarceration.
In opposition, the Government posits that Compassionate Release
is unjustified and is opposed, arguing that the Movant is a danger
to

the

public

good

based

upon

his

violent

history

and

characteristics, his use of illegal substances while in prison
garnering disciplinary action. The Government also refers to the
basis of this inmate’s original mandatory sentence. The Court so
finds. Compassionate Release is not and does not apply to those
who present a danger of recidivism or harm to the community.
Applying 18 U.S.C. § 3582(c) factors to this inmate, a sentence
reduction is not warranted. Moreover, the Court does not find that
as a released inmate he would be less exposed to Covid-19. Lastly,
his release date is approximately five years hence and, thus, not
imminent. For all reasons stated, the Defendant’s Motion for
Compassionate Release is DENIED.

5

Case 3:13-cr-00038-DCB-LRA Document 60 Filed 09/10/20 Page 6 of 6

Accordingly,
IT IS HEREBY ORDERED that Defendant’s Motion for
Compassionate Release [ECF No. 54] is DENIED.
SO ORDERED this the 9th day of September, 2020.

_/s/ David Bramlette________
UNITED STATES DISTRICT JUDGE

6

